                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A3tXMH                                                                         Page 1 of 1
                     Ao3030oii

         On March 5,2003, an NSF program officer informed us of an allegation of plagiarism.
         Specifically, a reviewer alleged that an NSF proposal' was plagiarized from a graduate student's
         project report available on the web2.The allegation, which was based on a Google search, was
         supported by a marked-up copy of the proposal and the URL for the student paper. The matter
         was opened for inquiry that same day.

         We compared the two documents and found almost complete overlap. However, our review of
         relevant documents indicated that the PI and the graduate student, though at different campuses
         of a state institution, are active collaborators with many joint publications. We considered the
         possibility that the proposal was co-authored by the student and the PI. To resolve the question of
         authorship, we wrote to the PI on June 2,2003.

         The PI immediately replied that he and his graduate student collaborated simultaneously on the
         student's project and on the NSF proposal. The student then provided us with specific written
         information about the collaboration, which we confirmed in a telephone interview. The student
         explained that preparing an NSF proposal was valuable experience for an academic career.

         In our conversation with the PI, we advised him that he would have done well to acknowledge
         his student's contribution in a footnote to his proposal. He expressed chagrin and agreed.

         We conclude that the allegation of plagiarism is not substantiated. Accordingly, this case is
         closed.




NSF OIG Form 2 (1 1102)
